DOE/IG-0425




         AUDIT
        REPORT                              THE
                               U.S. DEPARTMENT OF ENERGY’S
                               FACILITY REUSE AT THE ROCKY
                                    FLATS ENVIRONMENTAL
                                      TECHNOLOGY SITE




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL               AUGUST 1998
   OFFICE OF AUDIT SERVICES
                                                  August 20, 1998


MEMORANDUM FOR THE SECRETARY

FROM:                   Gregory H. Friedman
                        Acting Inspector General

SUBJECT:                INFORMATION: Audit Report on "The U.S. Department of Energy's Facility Reuse
                        at the Rocky Flats Environmental Technology Site"

BACKGROUND

For several decades, the Rocky Flats Environmental Technology Site (Site) operated as part of the Nation's
nuclear weapons production complex. In 1989, however, the Department of Energy (DOE) ceased produc-
tion at the Site and, by 1992, DOE began transitioning Rocky Flats to a cleanup mode. DOE's goal is to con-
vert the Site to beneficial use in a manner that is safe, environmentally and socially responsible, physically se-
cure, and economical. We initiated this audit to determine whether the Site was maximizing its reuse of ex-
cess facilities.

RESULTS OF AUDIT

The Rocky Flats Field Office (Field Office) scheduled all of the Site's facilities for demolition without having
formally analyzed the reuse potential of these facilities. During the audit we identified over 30 facilities which
may have potential for reuse. However, we did not make the kind of in-depth cost/benefit studies that the
DOE requires before such decisions are made. We recommended that the Field Office analyze the Site's facili-
ties to determine which, if any, are appropriate for reuse and that the results of this analysis be coordinated
with the local community reuse organization.

MANAGEMENT REACTION

Field Office management did not concur with the finding and recommendations. In responding to a draft of
this report, management confirmed that, "specific individual analyses are not available for each facility or all
facilities at the Site." (Emphasis supplied.) Further, management expressed its disagreement with our conclu-
sion that the facilities at the Site, and specifically the 31 facilities identified during the audit, should be consid-
ered for reuse, citing such factors as building age, radiological or chemical contamination, cost of improve-
ments to conform to current building codes and the marketability of the facilities. In evaluating the com-
ments, we recognized, and have so acknowledged in this report, that the issues raised by management could
be deciding factors in any final decision on reuse of the Site facilities. However, we concluded that Depart-
mental facility reuse decisions should be based on the kind of formal analytical data called for in the DOE
guidance. Our judgment in this matter was influenced by the value of the Department's investment in the
Rocky Flats Site, the cost of the Federal remediation effort at the Site, and the Department's commitment to
making former DOE facilities available to the local communities fo economic development.

Attachment

cc: Deputy Secretary
    Under Secretary
THE U.S. DEPARTMENT OF ENERGY’S FACILITY REUSE AT THE
ROCKY FLATS ENVIRONMENTAL TECHNOLOGY SITE

 TABLE OF
 CONTENTS



                  Overview

                  Facility Reuse at the Rocky Flats Environmental
                  Technology Site .............................................................. 1


                  Reuse of Excess Facilities


                  Details of Finding............................................................ 3


                  Recommendations and Comments ................................. 6


                  Appendix 1


                  Scope and Methodology ................................................. 8


                  Appendix 2


                  Facilities Identified by the OIG as
                  Potential Reuse Candidates ........................................... 9


                  Appendix 3
                  Management Comments ............................................... 10
OVERVIEW
INTRODUCTION AND   For several decades, the Rocky Flats Environmental Technology
OBJECTIVE          Site (Site) mission was nuclear weapons production. When the
                   Cold War ended, the mission changed to cleaning up the Site.
                   Presently, the Site is scheduled for closure in 2010. However,
                   the Rocky Flats Field Office (Field Office) has been challenged
                   to accomplish closure by 2006. All of the Site's facilities,
                   therefore, will become excess by 2010 or sooner. A January
                   1997 report, Linking Legacies, Connecting the Cold War
                   Nuclear Weapons Production Processes To Their
                   Environmental Consequences, published by the Office of
                   Environmental Management has pointed out that 470 facilities at
                   the Site are no longer needed to fulfill the Department of
                   Energy's (DOE) mission.

                   DOE's stated goal is to convert the Site to beneficial use. In this
                   conversion, DOE has recognized that it must consider how excess
                   facilities can be appropriately reused. This recognition was emphasized
                   in the July 1995 plan, Privatization of the Rocky Flats Environmental
                   Technology Site, which stated that the Site's facilities represented
                   substantial taxpayer investment and that DOE, as well as the community,
                   would benefit from reuse. Our audit objective was to determine whether
                   DOE was maximizing reuse of the Site's excess facilities.

                   The Field Office has scheduled all of the Site's facilities for demolition
                   without first having analyzed their potential for reuse. Thus, the Field
CONCLUSIONS AND
                   Office may not be maximizing the reuse of these facilities. During the
OBSERVATIONS
                   audit, we identified 31 facilities that may be potential candidates for
                   reuse.

                   The Field Office, by scheduling all of the Site's facilities for demolition,
                   has in effect made the decision that demolition is the best course of
                   action without first determining whether reuse is feasible or cost
                   effective. Reuse may be feasible because the Site is located in Jefferson
                   County, one of the fastest developing areas in Colorado. The Jefferson
                   Center Associates, a nonprofit organization formed by Jefferson County,
                   is planning to develop 5,700 acres of land on the west and south sides of
                   the Site for office, industrial, commercial, and residential uses. Thus, the
                   Site's proximity to ongoing and planned development may make its
                   facilities marketable. If reuse was feasible, the community surrounding
                   the Site could potentially realize significant economic benefits and DOE
                   could avoid spending millions of dollars in demolition costs.




Page 1                                                Facility Reuse at the Rocky Flats
                                                      Environmental Technology Site
         As DOE continues to downsize, consolidate, or close major complexes,
         it must weigh the impact of its actions in excessing unneeded facilities.
         As this and other Office of Inspector General (OIG) reports have shown,
         however, management has not always planned ahead and fully
         considered the economic consequences of its decisions. For example, in
         report ER-B-98-01, Audit of the Deactivation, Decontamination, and
         Disposal of Surplus Facilities at the Savannah River Site, management
         did not proceed with its disposal process in an expedient manner
         because the Operations Office did not compile a site-wide list of
         facilities, establish priorities, or provide sufficient funds. This led to the
         unnecessary expenditure of funds. Similarly, in report DOE/IG-0408,
         Audit of Shutdown and Transition of the Mound Plant, management did
         not consider the economic impact of keeping Mound open to perform
         one operation when it would have been more economical to close the
         facility and move the operation elsewhere. Likewise, in report DOE/IG-
         0360, Audit of the Transfer of Government-Owned Property at the
         Mound and Pinellas Plants, management planned to excess personal
         property that was not properly screened elsewhere in DOE. As a result,
         DOE may lose the use of property worth several hundred million dollars.
         Although these reports have a different focus, their common theme is
         the importance of managers properly weighing the impact of their
         actions not only on DOE and the local communities but also on
         taxpayers.

         Field Office management disagreed with our finding and
         recommendations. Management's comments are summarized on page 6
         and provided in detail in Appendix 3.

         In our opinion, the matters discussed in this report represent material
         internal control weaknesses within DOE that should be considered when
         preparing the yearend assurance memorandum on internal controls.




                                                  ________(Signed)____________
                                                Office of Inspector General




Page 2                                       Facility Reuse at the Rocky Flats
                                             Environmental Technology Site
REUSE OF EXCESS FACILITIES
Potentially Reusable   The Field Office has scheduled all Site facilities to be demolished by
Facilities Scheduled   2010 including facilities that the local community reuse organization, the
For Demolition         Rocky Flats Local Impacts Initiative (Initiative), had targeted for reuse.
                       The Initiative analyzed 12 facilities and selected 9 for reuse. Later, the
                       Initiative dropped 3 of the 9 facilities due to a lack of a perceived market
                       or because of the costs associated with bringing the facilities up to
                       Federal and commercial standards. According to Field Office
                       management, the remaining 6 also may not be marketable or may follow
                       another disposition path. However, despite the stated position of the
                       Field Office, we noted that the Initiative is still considering these 6
                       facilities for reuse.

                       To determine if other facilities were candidates for reuse, we applied
                       characteristics of the 9 facilities selected by the Initiative and identified
                       31 additional potential candidates located outside the Protected Area.
                       These 31 facilities have 627,491 square feet of space and cost about
                       $121 million. (Specific details about these 31 facilities can be found in
                       Appendix 2.) The Field Office has scheduled 4 of these facilities for
                       demolition beginning in 1998. The Field Office pointed out that either
                       there is no market for these facilities or that the cost to bring them to
                       Federal and commercial standards far outweighs the benefits associated
                       with reuse.

                       The objective of this audit did not include determining whether specific
                       facilities were reusable. Consequently, we acknowledge that reuse of
                       facilities identified during this review may not be feasible or cost
                       effective. However, the Field Office itself does not know the reuse
                       potential of the 31 facilities. When asked to provide the results of
                       market or cost benefit analyses, for example, a Field Office official
                       stated that such analyses had not been performed. The Field Office
                       cannot demonstrate whether or not reuse is the most appropriate method
                       of disposal of these properties.

                       The call for DOE elements to determine the disposal method, either
Reuse Guidance         through reusing or demolishing excess facilities, is in DOE Order 430.1,
                       Life Cycle Asset Management, and in guidance entitled Resourceful
                       Reuse - Planning Future Uses of DOE Sites: A Guide for DOE
                       Program and Real Property Managers (Reuse Guide). DOE issued the
                       Reuse Guide to serve as an important resource for site managers and
                       encouraged managers to use it to make reuse a reality. According to the
                       Reuse Guide, DOE managers are responsible for determining whether
                       excess facilities can be reused and stipulates that DOE elements, such as



Page 3                                                                          Details of Finding
                 determining whether excess facilities can be reused and stipulates that
                 DOE elements, such as the Field Office, answer three basic questions:

                     1. What property is available for reuse?
                     2. How can the property best be reused?
                     3. How can the property be transferred to its future users?

                 To answer the first question, the Field Office was to analyze
                 characteristics of the property, including environmental contamination,
                 and then gain some sense of the marketability of the excess property.
                 After the first question was answered, the Field Office and interested
                 parties, such as the Initiative, were to address the other questions and
                 identify the most beneficial use of the property.

                 According to the Field Office, the Reuse Guide is not a regulatory
                 requirement and is not included in the Kaiser-Hill Company, LLC
                 contract. We do not believe that inclusion or exclusion of the Reuse
                 Guide is relevant since the stipulations we refer to are Federal functions.
                 Our review of the Reuse Guide showed that it is an official DOE
                 publication and there is every reason to believe that DOE intended for
                 site managers to use it or to use the reuse principles that it includes.
                 Absent some unusual circumstance, it appears reasonable to conclude
                 that the guide was to be implemented at all DOE facilities, including this
                 site. The Field Office also pointed out that the Reuse Guide discusses
                 the need to evaluate the costs of making facilities comply with Federal
                 regulations. We recognize the importance of evaluating the costs
                 associated with reuse.

                 The Field Office had not determined what property was available for
"Hands-Off"      reuse. Field Office officials commented that they had taken a "hands-
Approach to      off" approach to facility reuse and, instead, relied on the Initiative. For
Facility Reuse   example, one official stated that the Field Office had not analyzed the
                 reuse potential of facilities and that if there were to be any hope for
                 reuse, the Initiative would have to perform the analyses. Another
                 official stated that it was the responsibility of the Initiative to identify
                 buildings for reuse, not that of the Field Office.

                 The Field Office pointed out that the Initiative is to be consulted on
                 matters of facility reuse. We agree that "consultation" is an appropriate
                 description for the role of the Initiative in reuse decisions. However,
                 since the Initiative functions in an advisory capacity, the Field Office still
                 needs to play a decisive role in determining which Site facilities are
                 available for reuse. In fact, as described in the Reuse Guide, the Field
                 Office should take the lead in determining the most appropriate disposal

Page 4                                                                   Details of Finding
                 method. The Reuse Guide states that after site managers identify
                 reusable facilities, they should consult with other interested parties to
                 decide the most beneficial use. Further, DOE Headquarters officials
                 have stated that Site management, a Federal function, is responsible for
                 determining the reuse or disposal of excess facilities. According to
                 Environmental Management officials, Site management should
                 determine how best to reuse facilities and to plan for and implement
                 reuse strategies. According to Field Management officials, Site
                 management has the authority to lease or sell its assets, including
                 facilities, as soon as they are not needed.

                 Based on the guidance provided in the Reuse Guide, DOE, because it
                 has the most knowledge about the Site facilities, is in the best position to
                 identify facilities for reuse.

                 Economic development of communities surrounding DOE sites ranks as
Reuse Benefits   one of the most important reasons for DOE to responsibly divest itself
                 of excess facilities. As part of economic development, facility reuse can
                 provide significant benefits to the community. An example of economic
                 benefits can be seen in a proposal by a private company to lease four
                 Site facilities. The proposal estimated that reusing the four facilities
                 would result in the following annual benefits to the community:

                    • 500 jobs, some of which could have been filled by former
                      employees at the Site;
                    • $20 million payroll;
                    • $15 million of procurements from local vendors; and,
                    • $3 million in local taxes.

                 Although DOE ultimately decided not to enter into a lease with the
                 private company, the proposal demonstrates the kind of potential
                 benefits that can be realized through reuse. The Field Office, in its
                 comments on the draft audit report, argued that it expected the ultimate
                 number of jobs created to be less than 500 and that any reuse benefits
                 would be offset by additional costs to the Government. The Field Office
                 may be correct. However, absent the analyses by the DOE which are
                 called for in the Reuse Guide and which we are recommending, the DOE
                 will not know what, if any, economic benefits could have been realized
                 from reuse.

                 In addition, if the 31 facilities identified in this audit were found to be
                 viable reuse candidates, DOE could avoid spending about $69 million in
                 planned demolition costs (see Appendix 2). These savings could be


Page 5                                                                  Details of Finding
                  In addition, if the 31 facilities identified in this audit were found to be
                  viable reuse candidates, DOE could avoid spending about $69 million in
                  planned demolition costs (see Appendix 2). These savings could be
                  used, for example, to further accelerate Site closure. Although the Field
                  Office has not performed any analyses to support its position, it argued
                  that the costs of making the 31 facilities marketable precluded their
                  reuse. Consequently, the facilities have been scheduled for demolition.

RECOMMENDATIONS   We recommend that the Manager, Rocky Flats Field Office:

                  1. Analyze the facilities at the Site to determine what property is
                     available for reuse.

                  2. Coordinate the results of the analysis with the Initiative to determine
                     how best to reuse facilities.

MANAGEMENT        Management did not concur with the finding. In general, management
                  disagreed that the 31 facilities cited in the report were potential
COMMENTS
                  candidates for reuse because the existing facilities needed substantial
                  improvements that would be very expensive. Management stated that, it
                  was not evident that the OIG considered such factors as building age,
                  level of contamination, or improvements needed to make the facilities
                  marketable. Management acknowledged that specific individual analyses
                  are not available for each facility or all facilities at the Site. Rather, it
                  relied on experiences learned from the National Conversion Pilot
                  Project, the Lowry Air Force Base Redevelopment, and the Mound
                  Closure Project, as a basis for arguing that reuse is not cost effective.
                  Management's comments, without the detailed attachments, are provided
                  in Appendix 3.

                  Management also did not concur with the recommendations.
                  Management stated that it had a process in place to evaluate
                  facilities for reuse and planned to continue it through Site
                  closure. According to management, as facilities become excess,
                  they are screened for reuse within the Site and then within DOE.
                  Reuse potential and disposal potential are compared and the
                  costs associated with both are analyzed. A disposition path is
                  then determined and the Realty Officer approves the disposal
                  action. This can only be accomplished when sufficient funds are
                  available. Therefore, this analysis only occurs when facilities are
                  funded as shown in the plan for site closure. Management stated
                  that it has only reported nine facilities to the General Services
                  Administration as excess. Finally, management stated that early,
                  ongoing involvement of the Initiative in planning for facility

Page 6                                              Recommendations and Comments
                   that early, ongoing involvement of the Initiative in planning for facility
                   reuse, which was already in place, was logical, appropriate, and
                   consistent with DOE guidance.

AUDITOR COMMENTS   The Field Office acknowledged that there was no documentation of
                   market or cost benefit analyses for the 31 buildings we identified as
                   potential candidates for reuse, and that such analyses had not been
                   performed. We do not presume that our analysis identifying 31 potential
                   candidates for reuse qualifies as the type of comprehensive analysis that
                   is outlined in the Reuse Guide.

                   Analyzing the Site's facilities for potential reuse should be done as early
                   as possible in order to maximize the benefits that may be realized.
                   Although the Field Office has only reported 9 facilities to the General
                   Services Administration as excess, all of the Site's facilities will become
                   excess by 2010 or sooner. Analyzing the Site's facilities now, rather
                   than when each facility is excessed, would enable the Field Office to best
                   decide whether facility reuse should be implemented and provide the
                   Initiative with time to attract potential users. If, for example, the
                   analysis identified a substantial number of facilities as potentially
                   reusable, the business community might be more interested and the Field
                   Office more inclined to proceed with facility reuse. Having some lead
                   time would perhaps enable the Initiative to have customers/tenants ready
                   to make use of the facilities once the Field Office declares them to be
                   excess, further maximizing benefits.

                   Waiting until each facility is excessed to determine its reuse potential
                   precludes the Field Office from knowing how many other facilities are
                   candidates for reuse, thus making reuse less attractive and leaving
                   demolition as the only real viable option available. We acknowledge
                   that lessons learned at other locations are beneficial, however, it would
                   not be prudent for the Field Office to rely solely on these lessons as a
                   basis for precluding the Site's facilities from being candidates for reuse.




Page 7                                                Recommendations and Comments
Appendix 1
SCOPE         We performed the audit from March 1997 to March 1998 at the Field
              Office and Kaiser-Hill Company, LLC (Kaiser-Hill) located at the Site
              near Golden, Colorado.

METHODOLOGY   To accomplish the audit objective, we:

                 • reviewed DOE and Field Office guidance on the
                   decommissioning and reuse of facilities;

                 • interviewed Field Office and Kaiser-Hill officials to understand
                   their procedures for facility decommissioning;

                 • interviewed Headquarters, Field Office, Kaiser-Hill, and
                   Initiative officials responsible for managing and planning for the
                   reuse of excess facilities at the Site;

                 • reviewed documents concerning the reuse of excess facilities;
                   and,

                 • analyzed the potential reuse of facilities scheduled for demolition
                   using characteristics (age, size, and level of contamination) similar
                   to the nine facilities initially selected by the Initiative for reuse.

              We conducted the audit according to generally accepted Government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent
              necessary to satisfy the audit objective. We limited our review of
              internal controls to those controls associated with the reuse of excess
              facilities. Because we limited our review, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at the
              time of our audit. We did not rely extensively on computer-generated
              data. Therefore, we did not fully examine the reliability of the
              computerized data used.

              We held an exit conference with Field Office and Kaiser-Hill managers
              on July 16, 1998.




Page 8                                                     Scope and Methodology
Appendix 2
                             Facilities Identified by the OIG as Potential Reuse Candidates

      Bldg.         Facility Name            Built   Size, Sq. Ft.   Demolition Cost   Demolition    Cost (a)
                                                                                         Year
  1   111 Administration                     1953         44,046        $3,950,000       2000         $2,103,110
  2   112 Telecommunications                 1953          9,280           200,000       2005          2,482,799
  3   115 Office                             1987         16,964           375,000       2005          1,364,448
  4   116 Office                             1991         16,700           375,000       2000          1,003,100
  5   119 Fitness Center                     1988         11,200           240,000       2005           839,934
  6   121 Plant Protection                   1953          6,530           160,000       2005          3,209,367
  7   122 Occupational Health                1953          8,600           200,000       2005          1,814,795
  8   123 Health Physics and Analytic Labs   1953         18,891           430,000       1998          4,217,841
  9   124 Water Treatment Plant              1953          8,308           290,000       2006          3,068,678
10    128 Vehicle Shelter                    1980          2,448            25,000       2005           125,000
11    331 Fire Station                       1953         23,540           800,000       2009          2,230,622
12    333 Paint Shop and Sand Blast          1953          3,060            60,000       2000           278,962
13    334 General Offices and Maintenance    1953         42,950         1,500,000       2000          1,395,696
14    441 Production Support Offices         1953         17,790           375,000       2004          1,972,113
15    442 Filter Test Lab                    1953          8,370            25,000       2000           392,583
16    443 Heating Plant                      1953         18,606         2,500,000       2007         25,033,179
17    452 Office Buildings                   1983          6,000           110,000       2000           505,081
18    549 Alarm Systems Office               1957          1,920            25,000       2000            10,000
19    551 General Warehouse and Shop         1953         44,140         1,000,000       2000           937,952
20    552 Storage Building                   1953          4,170           160,000       2003           121,376
21    662 Storage                            1957          2,600            74,000       1999            92,220
22    663 Storage and Shipping               1961          4,446            74,000       1999              9,318
23    664 Waste Storage and Shipping         1972         13,730           700,000       2009          3,213,477
24    875 Filter Polonium                    1966          3,297           358,800       1998          1,158,408
25    880 Storage                            1968            800            50,000       1998              7,818
26    881 Manufacturing and General          1953       245,160         43,926,000       2005         57,817,132
          Support
27    885 Storage                            1962            960            25,000       1999            40,000
28    886 Nuclear Safety Lab                 1965         10,785         8,639,000       1998          2,294,371
29    906 Central Waste Storage              1994         25,000           800,000       2008          2,695,932
30    993 Security Storage Vault             1963          1,200            25,000       2005            57,859
31    995 Low Level Sewage Treatment         1953          6,000         1,200,000       2007           432,154
Totals                                                  627,491        $68,671,800                  $120,925,325


(a) Cost = Acquisition Cost + Capital Improvement Costs



Page 9                                                           Facilities Identified by the OIG as Potential
                                                                 Reuse Candidates
Appendix 3

United States Government                                                         Department of Energy

memorandum                                                                    Rocky Flats Field Office



   DATE:   June 4, 1998
REPLY TO
ATTN OF:   FCFO:FCRG:04650
SUBJECT:   Draft Audit Report on Facility Reuse at the Rocky Flats Environmental Technology Site
     TO:   Lawrence R. Ackerly, Manager, IG-35, Western Regional Audit Office

           My staff and I have reviewed the subject report, and have attended an exit briefing with members of
           your audit team regarding their draft findings on facility reuse at the Rocky Flats Environmental
           Technology Site (Site). We disagree with this report and its conclusions. RFFO is concerned that
           perhaps all the information provided by my staff was not reviewed nor effectively analyzed by the
           OIG. Given the amount of time and effort that the Site staff spent over the last nine months
           attempting to assist the auditors, we were surprised at the conclusions reached.

           My staff has numerous comments on individual portions of the report; these are attached. In
           general, we disagree as follows:

           1) RFFO disagrees with the OIG conclusion that 31 buildings could be considered for reuse - - As
              an example, the draft report alludes to 31 facilities that its authors believe should be considered
              for economic reuse. It is not evident, however, that the audit team considered such factors as
              building age, the presence of radiological or chemical contamination, or the improvements that
              would need to be made to these structures per uniform building code requirements, to make them
              marketable. Some buildings on the list (such as Building 886) are known to contain radiological
              contamination, while numerous others are 45 years old and have no remaining useful life.
              Additionally, the report makes no mention of the fact that there will be no infrastructure such as
              fire or emergency services or utilities available to these buildings at the end of the Site closure
              project. The factors effectively preclude reuse of many Site buildings.




Page 10                                                                          Management Comments
Appendix 3
          2) Economics of reuse at the Site are not considered in the report - -The report does not address
             the substantial costs to the government that are involved in the reuse of facilities. Among
             these are the millions of dollars required to decontaminate many of these buildings so that they
             can be occupied by the general public. For example, the Department of Energy has spent
             approximately $20 million to decontaminate and refurbish two buildings and equipment that
             were occupied by the National Conversion Pilot Project, a cost that the government would
             incur many times over if the buildings proposed by the audit team were to be seriously
             considered for reuse. Costs that would be incurred in preparing a building for reuse include
             detailed characterizations, remediation of asbestos and other hazards, and renovation to bring
             old buildings up to code and in conformance with the Americans with Disabilities Act.
             Additionally, the audit does not address the costs that would be incurred by the government
             for upkeep and maintenance of these buildings beyond the scheduled dates for their demolition,
             as well as the costs of supplying utilities to them.

          3) RFFO disagrees with the logic used to reach the conclusions expressed in the report -- The
             conclusions of the draft report cannot be supported by the available data. Most troubling in
             this regard is the statement on page 4 of the draft, which states: “If the facilities were reused,
             DOE might also avoid spending $69 million in demolition costs, which could be used to
             further accelerate Site closure.” This statement not only fails to account for the technical and
             economic factors noted above, but it also does not consider the fact that money will need to be
             spent at some point, quite possibly by the government, to tear these aging structures down.

          4) The draft report does not consider community sentiment (and thereby, building marketability)
             - -The audit team concludes that relying on the Rocky Flats Local Impacts Initiative (RFLII)
             to help determine which buildings were of interest to outside parties for reuse, was
             “inappropriate.” This conclusion fundamentally ignores RFLII’s mission, supported by DOE
             funding, which is to advise us on the economic impacts of our decisions (such a role for the
             community reuse organization - in this case RFLII - is also supported by the DOE guidance
             referenced in the draft report). It also ignores the fact that decisions regarding the future use
             of government resources cannot be made unilaterally by the government and then imposed
             upon the community, as the draft report implies. The report’s implication that DOE should
             expend closure resources on attempting to convince the community to consider reuse of other
             buildings that the community is clearly not interested in is counterproductive.

          In summary, the conclusions reached in the draft report are not supported by relevant facts.
          Although the OIG requests an individual analysis for all facilities, the real estate requirements and
          the Resourceful Reuse Guide provide that these analyses are performed only after the




Page 11                                                                          Management Comments
Appendix 3

          building/facility is excess to DOE. RFFO has used models such as experience learned from the
          NCPP project, the Lowry Air Force Base Redevelopment, and the Mound Closure Project as a
          basis for statements in the attachments to this report. Specific individual analyses are not
          available for each facility or all facilities at the Site.

          If you have any questions, please contact me at 303-966-2025.



                                                         Jessie M. Roberson
                                                         Manager

          2 Attachments


          NOTE: The attachments contained detailed valuable information which has been
                incorporated into the body of the report. Because of the volume of text in the
                various attachments, they have not been included in this report.




Page 12                                                                     Management Comments
                                                                            Report No. DOE/IG-0425


                                 CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and therefore
ask that you consider sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include answers to the following
questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included
   in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed
   in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date________________________

Telephone_______________________Organization___________________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the
following alternative address:


               U.S. Department of Energy Human Resources and Administration Home Page
                                       http://www.hr.doe.gov/ig

Your comments would be appreciated and can be provided on the Customer Response Form
attached to the report.

                                    This report can be obtained from the
                                        U.S. Department of Energy
                               Office of Scientific and Technical Information
                                                P.O. Box 62
                                       Oak Ridge, Tennessee 37831
